                                    t                                          I

                                                  NATIONAL
                                                   OFFICE OF SCIENCE
                                                             INSPECTOR
                                                                     FOUNDATION
                                                                       GENERAL



 q$f@.j
 z
  a
          I)
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A05060038                                                                       Page 1 of 1



         A proactive review' revealed that text in two submitted NSF proposals2 was duplicated from
         publications and sources not referenced in the proposal. The subject3 was contacted, and
         confirmed the provenance of the plagiarized text, and explained the instances of plagiarism as
         arising from his use of literature study notes made in preparatioi~for writing about new research
         areas.

         The duplicated text is primarily in the form of short sentences, often separated by apparently
         original text, that serve to introduce various topics of the proposal. Most of the plagiarized text
         consists of a short text section taken verbatim from introductory sections of the source document
         to introduce a corresponding section in the proposal. The diversity of sources (original
         publications, polemics, reviews, and websites) supports the subject's contention that the text was
         transferred from the study notes into the proposal. The subject vows to take steps to avoid
         repetition of this problem, and claims to have reviewed his most recent proposal submission to
         NSF for any similar plagiarism. We also examined this recent proposal and found no instances
         of the same plagiarisn~that appeared in the target proposals.

         We accept the subject's explanation of the circuinstances in this case.

         Accordingly, this case is closed.




          '    Redacted
               Redacted.
               Redacted




NSF OIG Form 2 (1 1/02)
